<html>
<title> - TO REVIEW NOMINATIONS FOR USDA AND COMMODITIES FUTURES TRADING COMMISSION</title>
<body><pre>[Senate Hearing 109-682]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-682
 
                  TO REVIEW NOMINATIONS FOR USDA AND 
                 COMMODITIES FUTURES TRADING COMMISSION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                             JULY 26, 2006

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-431                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Vernie Hubert, Majority Deputy Chief Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Review Nominations for USDA and Commodities Futures Trading 
  Commission.....................................................     1

                              ----------                              

                        Wednesday, July 26, 2006
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, Chairman, Committee on Agriculture, 
  Nutrition, and Forestry........................................     1
Allen, Hon. George, U.S. Senator from Virginia...................     2
Harkin, Hon. Tom, U.S. Senator from Iowa.........................     1
Thune, Hon. John R., U.S. Senator from South Dakota..............     8

                                Panel I

Dunn, Michael V., of Iowa, Nominee to be Commissioner of the 
  Commodity Futures Trading Commission for a Term Expiring June 
  19, 2011 (Reappointment).......................................    11
Johner, Nancy Montanez, of Nebraska, Nominee to be Under 
  Secretary of Agriculture for Food, Nutrition, and Consumer 
  Services for the Department of Agriculture and to be a member 
  of the board of Directors of the Commodity Credit Corporation..     5
Knight, Bruce I., of South Dakota, Nominee to be Under Secretary 
  of Agriculture for Marketing and Regulatory Programs for the 
  Department of Agriculture and to be a member of the Board of 
  Directors of the Commodity Credit Corporation..................    10
McKay, Margo M., of Virginia, Nominee to be an Assistant 
  Secretary of Agriculture for Civil Rights for the Department of 
  Agriculture....................................................     6

                              ----------                              

                                APPENDIX

Prepared Statements:
    Baucus, Hon. Max.............................................    22
    Grassley, Hon. Charles E.....................................    24
    Harkin, Hon. Tom.............................................    26
    Nelson, Hon. E. Benjamin.....................................    29
    Dunn, Michael V..............................................    30
    Johner, Nancy Montanez.......................................    32
    Knight, Bruce I..............................................    35
    McKay, Margo M...............................................    38
Document(s) Submitted for the Record:
    Renewable Fuels Association..................................    44
    National Milk Producers Federation, letter of support for 
      Bruce I. Knight............................................    45
    Various agricultural organizations, letter of support for 
      Bruce I. Knight............................................    46
Question and Answer:
Dunn, Michael V.:
    Written response to questions from Hon. Norm Coleman.........    47
Johner, Nancy Montanez:
    Written response to questions from Hon. Michael D. Crapo.....    50
    Written response to questions from Hon. Tom Harkin...........    51
    Written response to questions from Hon. Craig Thomas.........    59
Knight, Bruce I.:
    Written response to questions from Hon. Max Baucus...........    60
    Written response to questions from Hon. Charles Grassley.....    63
    Written response to questions from Hon. Tom Harkin...........    66
McKay, Margo M.:
    Written response to questions from Hon. Tom Harkin...........    73
Additional Material(s) Submitted for the Record
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Michael V. Dunn............................    76
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Nancy Montanez Johner......................    92
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Bruce I. Knight............................   120
    Committee questionnaire and Office of Government Ethics 
      Executive Branch Personnel Public Financial Disclosure 
      Report filed by Margo M. McKay.............................   145



                  TO REVIEW NOMINATIONS FOR USDA AND 
                 COMMODITIES FUTURES TRADING COMMISSION

                              ----------                              


                        Wednesday, July 26, 2006

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:32 a.m. in Room 
SR-328A, Russell Senate Office Building, Hon. Saxby Chambliss, 
chairman of the committee, presiding.
    Present: Senators Chambliss, Talent, Thomas, Grassley, 
Harkin, and Baucus.

OPENING STATEMENT OF SENATOR CHAMBLISS, CHAIRMAN, COMMITTEE ON 
              AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. Good morning. This hearing will come to 
order.
    We're here today to conduct a hearing on three nominations 
to important posts at the U.S. Department of Agriculture, and 
an equally important nomination to the Commodity Futures 
Trading Commission.
    The nominees are: Nancy Montanez Johner--to be Under 
Secretary for Food, Nutrition, and Consumer Services; Bruce 
Knight, to be Under Secretary for Marketing and Regulatory 
Programs; Margo M. McKay, to be Assistant Secretary for Civil 
Rights; and Michael V. Dunn, to be a commissioner at the 
Commodity Futures Trading Commission. Ms. Johner and Mr. Knight 
have also been nominated to serve on the board of directors of 
the Commodity Credit Corporation.
    I've had the opportunity to meet with all four nominees and 
review their backgrounds. We all appreciate their willingness 
to come forward and engage in public service. I welcome all 
four nominees here this morning. And I thank you for appearing 
before the committee today.
    For the information of Senators and staff, I ask that any 
questions of the nominees for the record be submitted by 5:00 
p.m. tomorrow, July 27, in order to expedite the confirmation 
process.
    I now will turn to Senator Harkin for any opening comments 
he might wish to make.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Mr. Chairman, thank you very much.
    And I'll just ask that my statement be made a part of the 
record.
    [The prepared statement of Hon. Tom Harkin can be found in 
the appendix on page 26.]
    Senator Harkin. I welcome all of our individuals here.
    Some I know better than others, but in reviewing their 
backgrounds, and some who have worked in these various 
departments before, whom I know well, they are all extremely 
well-qualified people, and I hope we can move them 
expeditiously.
    I would defer any other comments and stuff to when you open 
it up for these individuals.
    The Chairman. Sure.
    Senator Harkin. Thank you, Mr. Chairman.
    The Chairman. Okay.
    At this time, before we proceed to the nominees, we have 
our good friend, our distinguished colleague, Senator George 
Allen, here to make an introduction.
    Senator Allen, welcome to the once-powerful Ag Committee. 
We're pleased to see you here. And please take some Georgia 
peanuts when you leave. [Laughter.]
    Senator Allen. Okay.
    The Chairman. You'll want to give up Virginia peanuts, 
George.

  STATEMENT OF HON. GEORGE ALLEN, A U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    Senator Chambliss, I appreciate the Georgia peanuts.
    They're very good. You just have to eat two of 'em to make 
up for as many volume as there is in a Virginia peanut. 
[Laughter.]
    Senator Allen. But they're very good and tasty. Senator 
Harkin, it's good to see you, as well.
    It's my pleasure to introduce to all of you on the 
committee here Margo McKay, of Falls Church, Virginia, the 
President's nominee to be Assistant Secretary of Agriculture 
for Civil Rights in the Department of Agriculture.
    Mr. Chairman, the mission of the Assistant Secretary of 
Agriculture for Civil Rights is to facilitate a fair and 
equitable treatment in the delivery and decisions related to 
the programs and many services of the USDA. To that end, if you 
look at the background and experience, the motivation, the 
qualifications, and the background of Margo McKay, she is 
highly qualified fulfill that mission.
    It is Ms. McKay's broad range of professional experience 
that makes her very well qualified to hold this position. You 
can look through her resume. Let me just take a few moments to 
highlight her positions. From being a trial attorney with the 
Office of Civil Rights division of the U.S. Department of 
Justice, to an associate general counsel at Fannie Mae, she has 
a tremendous breadth of knowledge. She has served as the 
director of the Office of Diversity at Fannie Mae, where she 
brings to this position an awareness of how important the job 
of Assistant Secretary in Agriculture for Civil Rights is in 
ensuring that everyone who works for, or is partnered with, the 
USDA is treated fairly and with dignity and respect.
    She will be introducing her family members later, so I'll 
not introduce them, but I know she's very proud. And I know her 
mother's very proud to have her here, and so are her children.
    But she--when she was a young attorney with the Department 
of Justice, she did sharpen her litigation skills by working on 
all aspects of civil rights and constitutional law, and she 
received numerous awards and commendation.
    Also, Mr. Chairman, Senator Harkin, she created and 
implemented an alternative dispute resolution program, and her 
initiative in working with minority- and women-owned business 
speak to her leadership ability. She's been the recipient of 
the prestigious Reardon Award for Corporate Excellence in 1994. 
She has received the Bronze and Silver Award for Exceptional 
Meritorious Service, as well as many other awards.
    If confirmed, Mr. Chairman, Senator Harkin, members of the 
committee, Ms. McKay will draw on her extensive legal 
comprehension and hands-on knowhow to carry out the mission.
    She has--when you hear--read her--or see her statement, and 
hear it, she has the right goals, to expand outreach and build 
trust in the USDA programs, which his very important. We've 
seen the need for that in Virginia.
    You may have, in your respective States. But we know we've 
seen the need for that building of trust with the USDA 
programs, and I think Ms. McKay is truly a perfect individual, 
with her experience and her motivation, to lead this mission. 
And I hope you'll move her on to the floor for confirmation as 
quickly as possible.
    And I thank you for allowing me to come and introduce Ms. 
McKay to the committee.
    The Chairman. Senator, thank you for being here.
    Ms. McKay, George happens to be one of my close personal 
friends, and him coming here today to speak in your behalf says 
an awful lot for you.
    And I'm just kidding, George, my neighbor sends me a big 
can of Virginia peanuts every year at Christmas, and they are-- 
[Laughter.]
    The Chairman. --outstanding peanuts.
    Senator Allen. As are the Georgia ones, Mr. Chairman. Thank 
you.
    The Chairman. Would all four of you please stand and raise 
your right hand?
    Do you swear that the testimony you're about to give will 
provide the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Ms. Johner. I do.
    Mr. Knight. I do.
    Ms. McKay. I do.
    Mr. Dunn. I do.
    The Chairman. Do each of you agree that you will appear 
before any duly constituted committee of Congress if asked to 
appear?
    Ms. Johner. I will.
    Mr. Knight. I will.
    Ms. McKay. I will.
    Mr. Dunn. I will.
    The Chairman. Thank you very much, and you may be seated.
    We also have Senator Thune, who will be here shortly, I'm 
sure, to speak on behalf of Mr. Knight. But, in the meantime, 
we're going to go ahead and move forward. And, let me just say 
that we're going to have a vote, I understand, at 10:00 
o'clock. We also have a joint session beginning at 11:00. So, I 
don't know how we're going to be able to work around this vote. 
If we have enough Senators here, we may try to run back and 
keep this going so that we can hopefully finish before the 
11:00 o'clock joint session. But we'll see how that goes, in 
any event--
    Senator Harkin. Mr. Chairman?
    The Chairman. Sure.
    Senator Harkin. Mr. Chairman, just in case--I know I had 
asked you earlier, but just in case we get all messed up with 
votes and stuff like this, I--I was going to wait until we got 
to Mike Dunn's--and we're going to work down the line, I know, 
but, just in case something happens and I'm not here, I just--
for the record, just wanted to say how proud I am of my fellow 
Iowan, Mike Dunn. We go back-- we were together in this 
committee in 1986-87, during the farm credit crisis, when we 
passed the farm credit bill that really helped keep our farmers 
afloat all over this country.
    And Mike was very much involved in the committee here, in 
this committee, in this room, at that time. He went on to head 
the Washington Office of the National Farmers Union, did that 
for a number of years, served as Under Secretary for Marketing 
and Regulatory Programs, directing the Office of Policy and 
Analysis at the Farm Credit Administration. And he served ably 
in all those positions.
    I know that Mike was selected by his colleagues to chair 
the Ag Advisory Committee at the CFTC, a reflection of his 
strong background and continuing interest in agriculture. He's 
also the chair of the Commission's Task Force on Public 
Outreach and Consumer Education regarding retail transactions 
and foreign currency. And over the past several months, this 
task force has worked to alert and educate the public about the 
risks and potential for fraud in the sales of foreign 
currencies in--to retail investors.
    So, that's just my way of saying I've known Mike Dunn 
almost all my adult life. His wife, Brooke, and four sons, I 
know, couldn't be here with him today, but he is what I 
consider to be just a great example of a public servant, always 
doing the jobs tasked to him, doing it diligently, doing it 
well, without any favoritism, partisanship. When he worked on 
this committee, he worked with both sides at that time, and has 
done so throughout his adult life. And I can't think of a 
better person for the committee--for the Futures--the Commodity 
Futures Trading Commission than Mike Dunn, and I just wanted to 
say that for the record.
    Mike, thank you.
    The Chairman. Well, again, Senator Harkin and I are also 
very good friends, and I have great respect for him. Mike, 
while I know you, and you and I have had a chance to visit, I 
will have to say that Senator Harkin speaking in your behalf 
says an awful lot for you. You've done a good job over at the 
CFTC, and we look forward to speeding your nomination forward. 
We'll now start with you, Ms. Johner, and we'll go down the 
line. Any opening comments you wish to make, we'd ask that you 
keep them as brief as possible. We will submit your entire 
statement for the record.

STATEMENT OF NANCY MONTANEZ JOHNER, OF NEBRASKA, NOMINEE TO BE 
    UNDER SECRETARY OF AGRICULTURE FOR FOOD, NUTRITION, AND 
CONSUMER SERVICES FOR THE DEPARTMENT OF AGRICULTURE AND TO BE A 
   MEMBER OF THE BOARD OF DIRECTORS OF THE COMMODITY CREDIT 
                          CORPORATION

    Ms. Johner. Thank you, Chairman.
    Mr. Chairman and members of the committee, I'm honored and 
grateful to appear before you as the President's nominee for 
the position of Under Secretary of Food, Nutrition, and 
Consumer Services.
    I would like to thank President Bush and Secretary Johanns 
for their trust and for this honor, as well as all those who 
have supported me.
    I would especially like to thank my husband, Randy, for his 
unconditional love and support. And I also want to thank my 
children, Melissa and Jesse Montanez, for their encouragement 
and belief in me.
    I was born and raised in a farming community in 
Scottsbluff, Nebraska. My parents, Joseph and Nancy Saldivar, 
were immigrants to the United States. My father worked long 
hours in the fields, and, as a young girl, I worked beside him, 
along with the rest of my family. In addition to teaching me by 
example the importance of good work ethics, my parents also 
showed me the value of family, and I will always be grateful to 
them for that.
    After high school, I worked part-time as a unit secretary 
at the local hospital. And as a secretary, I began to 
experience serving families through the Intensive Care Unit. I 
was very fond of this aspect of my work, and decided to pursue 
an education in social work. I earned a college degree while 
working and raising two children. I was a single parent faced 
with many challenges. I'm not embarrassed by that fact. It is 
part of who I am and why I believe I'm qualified for this 
position. I know what it's like to be on the verge of not 
making ends meet.
    I believe it is important to ensure that those who are 
eligible for assistance have access to benefits. After earning 
my degree, I served as a social worker. Experiencing the 
heartbreaking need firsthand did not deter or discourage me. It 
inspired me to work even harder, knowing that as a social 
worker I had the ability to impact the need and to ease the 
very struggle that I faced as a single parent. I have no 
illusion about ending all hunger, but that won't stop me from 
trying to impact the problem.
    When I was promoted to a service area administrator, I 
viewed the added responsibility as raising the bar for me as a 
public servant. It meant I could no longer simply tell the boss 
about my caseload concerns; I now had the ability and, 
therefore, the responsibility to address the challenges that 
prevent us from improving human condition.
    Two years ago, I was honored to be appointed as the 
director of Nebraska Health and Human Services. In this 
position, which I currently serve, I'm responsible for a staff 
of 5,000 and a budget of over $960 million. We touch thousands 
of lives, and it is a tremendous opportunity to help people. 
I'm grateful to have this chance to serve and make a 
difference.
    I have a conviction that, in whatever capacity one serves 
the public, it is the principles that bring quality to the 
service. The principles of compassion, integrity, respect, 
openness, and honesty have kept me focused on service and the 
value of families. These are the principles I brought with me 
as a social worker and as a director of Nebraska Health and 
Human Services. If confirmed to serve as Under Secretary for 
Food, Nutrition, and Consumer Services, I will hold to these 
same principles. I also pledge to listen to our customers, our 
service providers, State and local partners, advocacy groups, 
and certainly you here in Congress to determine better ways to 
serve our clients.
    I'm excited by the possible opportunity to work with the 
experienced and highly talented staff at the Food and Nutrition 
Service in the Center for Nutrition Policy and Promotion. They 
are dedicated to helping others, and it would be an honor to 
join them.
    In closing, I want to say I am eager to continue my work as 
a public servant devoted to providing children and low-income 
families with access to food, healthful diet, and nutrition 
education. Furthermore, if confirmed, I look forward to working 
together to fulfill our duty and service to this great Nation 
and its citizens.
    Thank you for your time, and I would be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Johner can be found in the 
appendix on page 30.]
    The Chairman. Thank you. Ms. McKay?

  STATEMENT OF MARGO M. McKAY, OF VIRGINIA, NOMINEE TO BE AN 
  ASSISTANT SECRETARY OF AGRICULTURE FOR CIVIL RIGHTS FOR THE 
                   DEPARTMENT OF AGRICULTURE

    Ms. McKay. Mr. Chairman, Ranking Member Harkin, and other 
distinguished members of the committee, thank you for--
    The Chairman. Mike.
    Ms. McKay. Mr. Chairman, Ranking Member Harkin, and other 
distinguished members of this committee, thank you for the 
opportunity to appear before you today. And I would like to 
thank Senator George Allen for his kind introduction. I greatly 
value his trust and his support.
    I am honored to have been nominated by the President to be 
Assistant Secretary for Civil Rights at the Department of 
Agriculture, and I am humbled by the confidence placed in me by 
President Bush, Secretary Johanns, and Deputy Secretary Conner.
    I would like to introduce my family--my mother, Gary McKay, 
is a retired nurse and a native of Pittsburgh, Pennsylvania; my 
youngest--
    The Chairman. Ask her to stand up so we know who your mom 
is.
    Ms. McKay. My mom is right here.
    The Chairman. Great.
    Ms. McKay. My daughter, next to her, Kaila Allen, is a 
sophomore at Hampton University in Virginia, and, I might add, 
an A student. [Laughter.]
    Ms. McKay. Next to her, my son, Rick Allen--he lives and 
works in Virginia, and he's an avid soccer player. He's in two 
soccer leagues, director of the league, captain of the team.
    The Chairman. All right.
    Ms. McKay. My oldest daughter, Marja, here, is an actress 
and a former Miss Teen USA, representing the District of 
Columbia. Next to here is her husband, Jean- George 
Vongerichten, who is a world-renowned chef.
    The Chairman. Nice looking family there, Ms. McKay.
    Ms. McKay. Thank you. I am so proud of them. Thank you very 
much. Senators I became aware of the civil rights struggle at a 
very young age, growing up in Pittsburgh, Pennsylvania, with my 
grandfather, John Gary Jones. He was a--active in the State and 
local NAACP and other civic organizations. As an African-
American man of his era, even though he was college educated, 
had served honorably in World War I, and was very capable, he 
was only able to achieve a certain level in the workplace, a 
supervisor in the Post Office.
    But he was my idol and my role model. I was impressed by 
his intelligence, his energy, his worldly perspective, and his 
activism. He instilled in me the importance of an education. He 
made me believe that I could do and become anything that I 
wanted. And he taught me the importance of helping others.
    As a child, I spent my summers with my other grandfather, 
John Mackay, in--at his farm in Catonsville, Maryland. I 
remember when my grandparents sold their farm and bought a 
house in Baltimore, Maryland. It did not occur to me at that 
time that selling the farm might not have been their first 
choice.
    Grandfather Jones died when I was 16, and there was no 
money for college, but I was able to attend Fisk University in 
Nashville, Tennessee, on a scholarship from the United Negro 
College Fund. I was recruited on campus by the Department of 
Housing and Urban Development. And, while there, I met another 
mentor, another civil rights leader, the late Honorable Samuel 
C. Jackson, of Topeka, Kansas. He was Assistant Secretary of 
HUD and a former EEOC commissioner. Sam Jackson encouraged me 
to go to law school. After attending Georgetown Law School, I 
joined the civil rights division in the Department of Justice, 
where I prosecuted cases under all the civil rights statutes.
    Later, I served as an administrative judge, hearing 
employment discrimination claims. I continued on this career 
path to the current time in both the public and the private 
sector, specializing in employment law and diversity. I believe 
that my background and experiences will serve me well if I am 
confirmed for this position.
    I am aware that many improvements have been made at USDA, 
and I have great respect for former Assistant Secretary Vernon 
Parker and all that he has accomplished under former Secretary 
Veneman and Secretary Johanns.
    However, that said, I believe that there's always more to 
do.
    If confirmed, my goals will be, first, to listen and to 
learn from all stakeholders. I want to know what specific 
measures USDA has taken to correct past problems, whether such 
measures have been successful, and what more needs to be done. 
I want to identify and remove unnecessary barriers to 
participation in USDA programs and outreach efforts, and 
continue to build trust. I want to make sure that the civil 
rights of USDA employees are protected. I want to build strong 
working relationships both inside and outside the Department, 
and to strengthen partnerships with organizations representing 
minority and female farmers and ranchers. In addition, I want 
to ensure that all programs run out of the Office of the 
Assistant Secretary for Civil Rights are effective and 
efficient.
    And, finally, if confirmed, I pledge to execute the 
Secretary's civil rights policy, which promises a workplace 
that respects differences and embraces diversity, and programs 
and services that are accessible and delivered to all of our 
customers fairly and with dignity. There can be no exceptions, 
no excuses.
    Mr. Chairman, thank you for--I'd like to thank the 
committee for considering my nomination. I'll be happy to take 
any questions you may have of me.
    [The prepared statement of Ms. McKay can be found in the 
appendix on page 38.]
    The Chairman. Thank you, Ms. McKay.
    Now, as we move to Mr. Knight, we're joined by our 
colleague from South Dakota, Senator John Thune.
    John, welcome. And I understand you have some comments to 
make about Mr. Knight.

  STATEMENT OF HON. JOHN R. THUNE, A U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Thune. Thank you, Mr. Chairman and members of the 
committee.
    The President's nominee to be Under Secretary for Marketing 
and Regulatory Programs at the Department of Agriculture is 
someone who has deep roots in the soils of South Dakota. Bruce 
Knight is a third-generation farmer and rancher, someone who 
runs a diversified farm and ranch, or grain operation, in South 
Dakota, and who I know makes regular trips back to South Dakota 
to check on that operation, more frequent trips during pheasant 
season, I might add, as well-- [Laughter.]
    Senator Thune. --but is very closely connected to the land 
in my State of South Dakota. But, more importantly, in terms of 
his--not that that isn't a key qualification for this job, but 
he's someone who, in the past 20 years--and I've known Bruce 
now for over 20 years--has worked diligently honing his skills 
for this position, someone who's worked on Capitol Hill. I 
first met Bruce over 20 years ago, and we were both wet-behind-
the-ears staffers.
    His first opportunity was to work on the 1985 farm bill, 
and he's worked on a number of farm bills since then--the 1996 
farm bill, as a member of the staff of former Senator Bob 
Dole--and has had key policymaking positions, positions where 
he was very involved in working the congressional aspect of 
policies that affect agriculture for not only the wheat 
growers, but also the National Corn Growers Association, and, 
of course, I think, as everyone knows, for the past 4 years 
now, has headed up the National Resource Conservation Service 
at the Department of Agriculture, where he has administered a 
multibillion-dollar budget, overseen over 11,000 employees, and 
been principally responsible for developing conservation 
programs for this country.
    He is very committed. He is a conservationist, a lifelong 
conservationist, someone who is very committed to expanding and 
growing and being innovative in initiating new programs and 
policies that will promote conservation on our lands, someone 
who is supremely qualified for the job for which he has been 
nominated, not only, again, because of his resume and his very 
dedicated and accomplished public service, but also because he 
understands the land. He's someone who grew up on it. He's 
someone who stays, as I said, very close to it. And add to all 
those things, he is a high-class, quality individual who I've 
had the privilege and the opportunity to know for over 20 
years.
    And so, it's a great privilege and honor for me to be able 
to hear--to be here today to introduce him to this committee 
and to urge this committee to quickly approve his nomination 
and get him on the job for which he's been nominated.
    So, Mr. Chairman, with that, I thank you for the chance to 
be here and to bring before you to your attention this very 
qualified individual for this job.
    Thank you.
    The Chairman. Thank you.
    Senator Harkin?
    Senator Harkin. Thank you very much, Mr. Chairman.
    I'd just like to join with Senator Thune in paying my 
respects and best wishes to Bruce Knight. I've known Bruce also 
for about 20 years. He's worked for three individuals for whom 
I have had, and continue to have, a very high regard, Jim 
Abnor--great friend--Fred Grandy, from Iowa, and, of course, 
Bob Dole. So, I've watched Bruce progress through all these 
years, and I just want to say again, for the record, that he 
has done an admirable job in running the NRCS for the last 4 
years under pretty trying circumstances --not of his making, 
perhaps of ours up here once in a while, because of budget 
considerations and things like this. But he's done a great job 
in running the NRCS.
    I had one question I was going to ask Bruce, but I don't 
know if I'm going to be here to ask it. I'm going to say, Are 
we going to get someone as good as you to run it after you 
leave? I don't know--see, I'm--I have mixed emotions here. 
[Laughter.]
    Senator Harkin. Again, I'd like to see him take over 
Marketing and Regulatory Programs. I don't want to have him 
leave NRCS. So, I'm kind of mixed in my emotions, whether I 
should support him or not. I don't know. [Laughter.]
    Senator Harkin. But a great guy, and has done just an 
outstanding job in everything that he's done in the past, and 
I'm proud to support him also. So, I just wanted to say that 
for the record.
    Thank you.
    The Chairman. Bruce, you've got a lot to live up to now. I 
look forward to you getting in this job, and you and I doing 
some field work in South Dakota in the middle of October. 
[Laughter.]
    The Chairman. I would also say that we have a couple of 
letters in support of Bruce, one from the National Milk 
Producers Federation, and another letter from 17 various 
agricultural organizations--national organizations. Those 
letters will be included in the record.
    [The following information can be found in the appendix on 
page 46.]
    The Chairman. And we also, I should have said earlier, 
have--Senator Ben Nelson intended to be here to introduce Ms. 
Johner, but, unfortunately, was unable to. But he has submitted 
a statement for the record in support of her nomination.
    [The following information can be found in the appendix on 
page 29.]
    The Chairman. Bruce, we look forward to your comments.

 STATEMENT OF BRUCE I. KNIGHT, OF SOUTH DAKOTA, NOMINEE TO BE 
  UNDER SECRETARY OF AGRICULTURE FOR MARKETING AND REGULATORY 
 PROGRAMS FOR THE DEPARTMENT OF AGRICULTURE AND TO BE A MEMBER 
 OF THE BOARD OF DIRECTORS OF THE COMMODITY CREDIT CORPORATION

    Mr. Knight. Mr. Chairman and distinguished members of the 
committee, I'm honored and humbled to appear before you today 
as nominee of Under Secretary for Marketing and Regulatory 
Programs of the United States Department of Agriculture.
    I've had the privilege of testifying before this committee 
several times, and nothing is more difficult for me than to 
talk actually about my own credentials, as opposed to the 
issues and policies of the day. I appreciate this very much, I 
wish to express my thanks to President Bush for nominating me, 
Senator Thune for introducing me and supporting my nomination. 
I owe a debt of gratitude to many mentors--former Senator James 
Abnor, who was my first boss in Washington, D.C., and whose 
wisdom and integrity I still treasure; former Representative 
Fred Grandy, former Senator Bob Dole, who taught me not to fear 
tough policy issues.
    Joining me today are my wife, Julie, and my children, 
Katherine and Denton, sitting behind me.
    The Chairman. Let them stand up, please.
    Mr. Knight. Julie, Katherine, Denton.
    The Chairman. All right. Another very handsome family.
    Mr. Knight. Thank you. Without Julie's faithful and ongoing 
support and encouragement, I would not be here today. She and 
the children serve to ground me and, quite frankly, to keep me 
focused on those things that are truly most important in life.
    I grew up on a small farm near Gann Valley, South Dakota, 
coming of age in the midst of the turmoil of the 1980s farm 
crisis. At South Dakota State University, I studied animal and 
range science and economics. As has been said before, I'm a 
third-generation rancher and farmer.
    Today, I own and operate a diversified grain and cattle 
operation in Buffalo County, South Dakota.
    In 1985, I came to Washington to serve as legislative 
assistant to Senator James Abnor, focusing primarily on 
agricultural and conservation issues. I worked in a similar 
capacity with Representative Grandy and Senator Dole. For more 
than 10 years, I had held agricultural policy positions with 
the National Association of Wheat Growers and the National Corn 
Growers Association.
    Four years ago, President Bush appointed me chief of the 
Natural Resources Conservation Service at USDA, the lead agency 
for conservation on working agricultural land, with a budget of 
over $3 billion and a staff of now nearly 12,000 employees.
    I believe that there is a strong link between conservation 
and the safeguarding of the environment, and the health of the 
animals, the plants, and the humans who share that land. All of 
these concerns are very interrelated and interdependent.
    As a farmer and rancher, I also understand the vital 
importance of fair, open, and orderly markets, and the value of 
encouraging trade, promoting fairness, and reducing barriers.
    Mr. Chairman, I do not appear before you today professing 
to be an expert in animal or plant health issues.
    What I would bring, however, to the table, if confirmed in 
the Marketing and Regulatory Programs mission area, is an 
extensive management experience from my work at two 
agricultural trade associations and, more directly, as 
administrator of a major USDA agency, in NRCS.
    As an executive, I have learned the value of gathering 
enough information to make a good decision quickly enough to 
make a difference. As a farmer, I bring real-world experience 
on the impact of rules and regulations on the marketplace, and, 
more importantly, on the farmer's bottom line. Also, as a 
farmer I understand full well the importance of prevention and 
planning as the first line of defense for avoiding and 
controlling diseases and pests.
    I realize that the agencies I would oversee, if confirmed 
as Under Secretary, deal with some of the most challenging and 
important issues confronting American agriculture today. 
Nevertheless, I believe that I am up to the challenge and would 
welcome the opportunity to serve.
    Mr. Chairman, if confirmed, I pledge to work with the 
members of the committee and their staff to help protect our 
Nation's flocks, fields, and forests against pests and diseases 
and to promote U.S. agricultural products here and abroad. 
Thank you.
    [The prepared statement of Mr. Knight can be found in the 
appendix on page 35.]
    The Chairman. Thank you. Mr. Dunn?

     STATEMENT OF MICHAEL V. DUNN, OF IOWA, NOMINEE TO BE 
COMMISSIONER OF THE COMMODITY FUTURES TRADING COMMISSION FOR A 
          TERM EXPIRING JUNE 19, 2011 (REAPPOINTMENT)

    Mr. Dunn. Thank you very much, Mr. Chairman, Senator 
Harkin--thank you for the kind words--and members of the 
committee. I'd like to thank you for having this hearing today. 
Mr. Chairman, I know you've got an extremely busy hearing 
schedule, and working this nomination hearing in is a tribute 
to the dedication and leadership of the committee, members, and 
staff. And, speaking of staff, Mr. Chairman, I'd like to 
recognize my staff from the CFTC: Nicole McNair, who makes 
things operate smoothly in my office; Jason Gizzarelli, who is 
legal counsel. He may look a little worn out and frazzled. 
That's not from working in the office, I assure you. He and his 
wife, Becca, have just brought home, recently, their firstborn 
son, Noah, and he is learning firsthand the joys and 
responsibility of fatherhood. And another person that probably 
needs no introduction to this committee, my chief of staff, 
Eric Juzenas. Eric is, I have found, an extremely capable and 
talented person. I apologize to the committee and Senator 
Harkin from-- stealing him from your staff, but he has been of 
great counsel to me at CFTC. Let me recognize one other person 
that should be no stranger here, and that's Doug Leslie, who is 
our liaison to the committee, who has also worked for the 
committee at various periods.
    Mr. Chairman, I'm honored to be considered for a full 5-
year term as commissioner for the Commodity Futures Trading 
Commission. I'd like thank President Bush for nominating me to 
this position and for Ranking Democratic Member Harkin and 
Minority Leader Reid for recommending me for that nomination. 
I've had the privilege to serve the last year and a half at the 
CFTC, and, I must say, Mr. Chairman, it's a tribute to this 
committee and Congress how well the Commodity Futures 
Modernization Act is working. There has been an increase of 326 
percent in the volume in the futures markets since passage of 
that legislation.
    The CFMA as aided by--aided by globalization and electronic 
markets, has facilitated an explosion of innovation and 
competition in the delivery of new risk- management tools.
    In furtherance of the public's interest in a fair, 
transparent, and efficient marketplace, Congress has entrusted 
the CFTC with oversight of the commodity trading industry. In 
my opinion, my fellow commissioners in CFTC staff has done an 
outstanding job in discharging this trust.
    Recently, under the tutelage of Chairman Rubin Jeffries, we 
have stepped up the number of public hearings and comments that 
we have asked in the Federal Register.
    Three of those ongoing comments on self-regulatory 
organizations--governance, foreign boards of trades, and 
commitment of traders that I'll talk a little bit more about --
are ongoing. We also have standing advisory committees.
    One, the Agricultural Advisory Committee, the--Chairman 
Jeffries and my fellow commissioners have selected me to chair. 
This committee's membership includes representatives of 
national farm organizations, major commodity groups, 
agribusiness and agricultural bankers, and the first time ever, 
to reflect their increased presence, will be members of managed 
money and swaps and derivative industries. This advisory group 
will hold its first meeting on August the 1st. It will be the 
31st member of the advisory committee, the first that I will 
chair. We will be taking up two subject matters. One will be 
looking at the Commitment of Trader reports. We're seeking 
public comments on the need for changes, if any, to the 
reports, their continued usefulness in today's market. And, 
secondly, we'll explore economic and market implications of 
thinly traded price discovery markets, which is sure to 
generate a great deal of discussion.
    Mr. Chairman, there's been a great deal of discussion by 
both this committee and the commission on the amount of foreign 
exchange or forex fraud. The chairman of the commission has 
asked me to head up a task force which has two goals: to raise 
consumer awareness regarding forex fraud through educational 
efforts, and to encourage State and local and Federal 
authorities, as well as consumer advocacies and industry 
organizations, to assist in our efforts at fighting forex 
fraud.
    The task force has been--has created and distributed a 
brochure warning investors of potential fraud, and want to 
protect it--and how to protect themselves from that.
    Thousands of these brochures have been circulated 
throughout the country. Over--close to 10,000 have been 
downloaded from our Web site. The task force has facilitated 
CFTC's membership and consumer alliance groups, engaged in 
joint activities with the National Futures Association, the 
North American Security Administrators Association, and has met 
with staff of State attorney generals.
    I firmly believe that along with the proposed changes in 
the CEA reauthorization and this consumer education, we will 
have a two-prong approach to fight forex fraud.
    It's been an honor and a privilege to serve for the last 
year and a half on the CFTC. If I'm confirmed for another 5-
year term, I look forward to working with the committee, 
Congress, the administration, and my fellow commissioners to 
fulfill the mandates of Congress at the CFTC.
    I appreciate your time and effort, and look forward to 
answering any questions that you may have. Thank you.
    [The prepared statement of Mr. Dunn can be found in the 
appendix on page 30.]
    Senator Thomas [presiding]. Thank you all for your 
testimony. The Chairman ran over to vote, and he will be 
returning as shortly as possible. In the meantime, we'll go 
ahead. Rather than take too much time, because we do--I have 
some interests that I want to express to Mr. Knight, 
particularly, being from Wyoming. And they're not questions, 
particularly; I just want to let you know that these are areas 
that I'm concerned about, and then you might wish to comment. 
One is brucellosis, of course. And APHIS is very much involved 
in that. And we're interested in getting returned to a 
brucellosis-free situation in Wyoming. We've been free, we 
think, for over a year; and so, we need to continue to work at 
that.
    Wildlife Services. APHIS also oversees the Wildlife 
Services. We're very much involved with predators and so on. 
And we are working very hard with our colleagues in Idaho and 
Montana. So, we want to enlist your support to maintain and 
strengthen the wildlife services. The Tri- State Predator 
Program that is underway and is doing some things.
    Mandatory price reporting. As you know, the law requires 
mandatory price reporting. And we think this means not everyone 
in the industry is participating, because some of the 
difficulties there, and we hope that you'll support mandatory 
price reporting.
    Packers and Stockyards Act. Inspector General's Office 
released a report that USDA had failed to enforce Packers and 
Stockyard. It's put in place to ensure competition.
    So, I hope that you will give some attention to 
implementing the recommendations of the OIG report, and this 
one's very important.
    Animal ID, finally, is something that I think needs some 
clarity, or at least the implementation in March. I'm glad 
USDA's working closely with the States to try and do some 
things, and I hope that we can succeed with a voluntary program 
so that it doesn't necessarily become mandatory.
    So, if you have any general reaction, fine; otherwise, 
we'll go on to Senator Harkin.
    Mr. Knight. Senator Thomas, I appreciate the concerns very 
much, and I look forward to, if confirmed, working with you 
very closely on each and every one of these issues.
    I'll try to bring my own experience as a rancher to the 
table as I look at how do we move National Animal ID forward. 
Things like brucellosis, I'd never let--there's never been a 
heifer calf leave the ranch that hasn't been Bangs vaccinated. 
So, that same sort of approach will be taken to each and every 
one of these issues.
    Senator Thomas. Great. We appreciate your service. Thank 
you.
    Senator Baucus. If I might, Mr. Chairman--I've got to run--
if I could just put my statement in the record, and questions 
in the record.
    [The prepared statement of Hon. Max Baucus can be found in 
the appendix on page 22.]
    Senator Baucus. Basically, as you know, Mr. Knight, they 
revolve around gypsum and around country-of-origin labeling. 
We've got to move on that. Thank you.
    Senator Thomas. Thank you, sir. Senator Harkin?
    Senator Harkin. Thank you, Mr. Chairman.
    Just a couple of questions for Ms. Johner.
    Ms. Johner. Yes, Senator.
    Senator Harkin. I--one of the things that this committee 
has been involved in for a long time has been the nutrition 
programs and the health of children in schools. And we 
continually try to get our arms around the breakfast programs, 
the school lunch programs, that type of thing.
    And I don't know how familiar you are with the fruit and 
vegetable program. In the last farm bill we started a program 
of providing free--free--I keep repeating that-- free fresh--
fresh--fruits and vegetables--free fresh fruits and 
vegetables--to kids in schools. It was sort of a pilot program. 
It started with four States, 100 schools, one Indian 
reservation. We wanted to see what would happen.
    The only stipulation we put in there, it wouldn't--it 
couldn't be in the lunch room. It had to be outside the lunch 
room, either in the classroom or in the hallways or something 
like that. And it had to be available during the day. Each one 
of those first 100 schools that applied, not one of them wants 
to drop out of the program. They all want to continue. We've 
now gone from four States to 14 States, and we're well over 500 
schools now, and it's just growing rapidly. Every single school 
that has voluntarily participated says it's one of the best 
things that's ever happened. These kids come to school in the 
morning, they get the growlies around 9:00 o'clock, and they 
can get carrots. I've actually seen kids, with my own eyes, eat 
fresh broccoli, Craig. [Laughter.]
    Senator Harkin. It's amazing. With my own eyes, I've seen 
it. I couldn't believe it. Or fresh fruits. They get grapes, 
strawberries, they get pineapple, all kinds of-- bananas. And 
during the spring they get the fresh strawberries. I saw one 
school, they bring in the fresh strawberries in the spring, and 
by 10:00 a.m. there's not a strawberry left in the school. Kids 
love it. They get fresh applies, oranges.
    Well, that's just my way of saying it's been very popular, 
and I think it's gone a long way towards helping the health of 
our kids. So, I don't know if you're very familiar with it. Not 
a lot of people are. I guess I'm just asking you, here, to 
really take some time, familiarize yourself with the program, 
go back to what we did in the farm bill, where we are in it 
now, and, at some point down the pike after you assume this 
position, I'd like to talk with you about how we continue to 
expand and grow this fruit and vegetable program. I don't know 
if you're familiar with it. I--if you aren't, I wouldn't expect 
you to be unless you were involved in it in some way.
    Ms. Johner. I do appreciate that question, Senator Harkin, 
and, no, I'm not familiar with that. We don't participate in 
that in Nebraska. However, I look forward to reviewing that 
operation. It sounds great. I believe that nutrition is very 
important to our kids, our children in the school systems. So, 
yes, I would be eager to look into that and discuss this with 
you.
    Senator Harkin. I'd ask that you maybe visit one of those 
States or someplace--
    Ms. Johner. Yes.
    Senator Harkin. --where they have this program, or where 
they're expanding it rapidly. Pennsylvania's--I don't remember 
all the States now. I can't remember them all. But the goal--
our goal was, when we implemented this --was, within 10 years, 
to have free fresh fruits and vegetables to every elementary 
school kid in America. And the way that it's been accepted and 
growing, it's been phenomenal. So, I hope we can keep on that 
track.
    And so, I--again, sometime later we'll--I want you to--when 
we come back, we'll talk about it.
    Ms. Johner. Yes, Senator. If confirmed, yes, I would be 
more than happy to look into that for you.
    Senator Harkin. Great.
    And, Bruce Knight--well, let me put it this way, Are you 
going to find some--find someone to replace you as good as you 
down at NRCS? [Laughter.]
    Senator Harkin. I mean, I--I told you I had mixed feelings 
about this one, you know. Anyway, I--you don't have to answer 
that. I'm just-- [Laughter.]
    Mr. Knight. I have learned, a long time ago, that there are 
many people in this world much more qualified than I--
    Senator Harkin. Yeah.
    Mr. Knight. --and it's the people you surround yourself 
with that make one a success.
    Senator Harkin. Well, I hope we find someone to continue 
the good work that you've done down there. And the rest of you, 
congratulations. I won't--we've got to go vote and everything 
like that, but I wish you all very well, and I look forward to 
working with you--
    Ms. Johner. Thank you, Senator.
    Ms. McKay. Thank you, Senator.
    Senator Harkin. --very much.
    Senator Thomas. Senator Talent?
    Senator Talent. Thank you, Mr. Chairman. I'll try and be 
brief, because I know we have to go. All right, I'll have some 
questions for the record, too. Let me just raise one issue, Mr. 
Knight, with you, and that's the whole question of the Animal 
ID Program that would allow for a 48-hour traceback. Now, I 
just--I think it's an important tool that has the potential to 
add value on the bottom line for producers who choose to 
participate in it, and also to just maybe ease some of the 
minds of our international trading partners, even though it's 
very clear that, you know, our herds are clean and disease-
free, particularly compared to other countries.
    I don't support a mandatory program, a mandatory animal ID 
program, but I think a voluntary program that's developed with 
industry has a lot of potential. We have to keep in mind, of 
course, that what may work for beef may not work in --at least 
in the same way for poultry and for pork. I also think that 
it's the kind of program that either makes its value known to 
producers or it doesn't. And if it doesn't, then, obviously, 
you know, a compulsory program's not going to be a good idea. 
And if it does, then you're going to get a lot of sign ups 
without that.
    Now, Secretary Johanns and I have talked at length about 
this. I have also visited a lot with our producers and producer 
organizations. If you want to make a comment-- and I figured 
I'd let you know my views about it--if you want to make a 
comment, I think it would be welcome, at this point.
    Mr. Knight. Thank you, Senator Talent. In the last several 
weeks, I've taken a much closer look at animal ID, since the 
nomination, and it certainly will be one of the highest 
priorities on my desk, if confirmed. There is a--room for 
improvement in making this touchable, tangible, and 
understandable for farmers and ranchers. It--we need a 
voluntary program that's very easy to understand and a program 
that is very apparent to a producer why it's important to both 
themselves as an individual and to the industry good as a 
whole. And I think those precepts could be transformational in 
how we're working with the National Animal ID Program at 
present.
    Senator Talent. Well, I very much appreciate that comment. 
It shows you've been thinking about it. And I'm also grateful 
that you think of it as a priority. And I agree with you, I 
think we need to really look at how we're doing this now and 
how we're communicating what we're doing. And I'm pleased that 
you want to make that a priority. Thank you, Mr. Chairman.
    Senator Thomas. I think the chairman will be back shortly 
to have some other questions. Ms. McKay, this is sort of naive, 
but could you kind of summarize what's the role of the 
Secretary of Agriculture for Civil Rights?
    Ms. McKay. Yes, Senator. I see the role of the Assistant 
Secretary for Civil Rights at USDA as one of enforcing the 
Department's civil rights policy, obviously, and that means 
preventing, or being proactive in preventing, discrimination, 
rooting it out, if it's--if it occurs, and making sure that 
corrective action is taken.
    Senator Thomas. Okay. Very good. Mr. Dunn, what do you 
think are the priorities that need to be considered by the 
Futures Trading Commission?
    Mr. Dunn. Senator, at the present time, as I indicated in 
my opening statement, we have three requests for comments, one 
on the self-regulatory organization governance, and that seems 
to be a very, very high priority. We have gotten a great deal 
of comments on that and asked a request for extension of the 
time for that particular issue. Foreign boards of trades, the 
globalization, and electronic trading is taking place. There's 
just been explosion out there, and it has a great impact on our 
internal markets, our domestic markets here in the United 
States. Again, we've extended the comment period on that so 
that we can hear from everybody on what they think about it. 
And, finally, the Commitment of Traders report, which really is 
the cornerstone for our surveillance, and used by all of the 
industry in figuring out what is happening, and it ensures that 
we have some type of transparency at the CFTC.
    The Chairman [presiding]: Ms. Johner, the USDA Food and 
Nutrition Service has a total annual budget of over $52 billion 
administered by 1400 employees. As director of Nebraska Health 
and Human Services, you supervised 5,000 employees, but the 
annual budget approached only $1 billion. Would you please 
explain for the committee your experiences that make you 
qualified for managing such a large increase of resources?
    Ms. Johner. Thank you, Senator. I--and I appreciate your 
question. I believe I do understand the significant 
responsibility that I would face if confirmed to this position. 
First, I believe that my philosophy of management which I have 
developed in my experience at the local and the regional and 
State levels will help me in this position. I believe that 
principles, as I said in my opening statement, brings quality 
to the service. And I believe in basing decisions on 
compassion, integrity, respect, openness, and honesty. These 
principles, along with working with the talented and dedicated 
staff, will allow us to accomplish the desired mission.
    But this question has been raised to me before in every 
step of my career. I believe I have demonstrated a track record 
of success. I first started as a professional partner program 
manager with a staff of 17 and a small budget, then moved to 
the service area administrator, with a staff of 222 and a $2 
million budget, then moved on to the director of Nebraska 
Health and Human Services, with a staff of 5,000 and a budget 
of over $960 million. And I have succeeded in those. But, most 
importantly, I have a strong desire to help the children and 
families in this Nation. I also have a strong commitment to 
public service. Thank you.
    The Chairman. Ms. McKay, in the area of civil rights, USDA 
has had problems in the past, but improvements continue to be 
made to ensure these problems do not resurface. If confirmed, 
what measures will you take to build on those already taken by 
USDA to ensure civil rights at USDA continue to improve and do 
not take a step back?
    Ms. McKay. Senator, if confirmed, my plan will be to first 
educate myself on the current state of affairs to find out what 
measures have been taken, what successes have occurred, what 
more needs to be done. My style is to work closely with my 
staff to listen to their suggestions, to rely on their 
expertise. I plan to also, if confirmed, work closely with 
external stakeholders, and I believe that by listening and 
working collaboratively we can figure out what improvements 
need to take place and move forward.
    The Chairman. Mr. Dunn, Alan Greenspan, the former chairman 
of the Federal Reserve system, has spoken of the benefits of 
derivatives markets; specifically, the lessened vulnerability 
of financial institutions to risk factors and the increased 
resilience of the entire financial system as a result of 
derivative use. Do you agree that financial system stability is 
improved by access to derivatives?
    Mr. Dunn. Yes, Mr. Chairman, I certainly wouldn't 
contradict Mr. Greenspan. It's an important part of the market, 
and something that we're very much aware of at the CFTC.
    The Chairman. Mr. Knight, Senator Grassley had a question 
here that he asked me to ask you. Soybean farmers in Iowa and 
other States established a Checkoff Evaluation Task Force to 
hire an outside consultant to look into how the United Soybean 
Board is using $35 to $40 million in producer checkoff 
assessments annually. The task force has requested funding from 
USB, as well as from State checkoff boards, to pay for the 
evaluation. On July 10, the USB board voted to not support this 
activity. I hope you will strongly encourage USB and State 
checkoff boards to fund the proposed evaluation of the soybean 
checkoff program. In the event adequate funding is not made 
available, I ask you to consider requesting a full audit of 
USBA--USB program and financial activities by the General 
Accounting Office.
    Any comments you wish to make?
    Mr. Knight. I--if confirmed, I will commit to taking a look 
at that and sit down with Senator Grassley about his concerns 
and see what resolution we can find.
    The Chairman. Ms. Johner, in articles you authored and 
provided to the committee you mentioned the idea of managing 
programs from the perspective of a family/person-centered 
practice. Would you please explain what that is?
    Ms. Johner. Thank you, Senator, yes. Simply put, it's 
basically just involving the people we serve, bringing them to 
the table, being able to have their voice and involvement in 
the planning process. And it's working as a team-base approach.
    Currently, my experience has been in the, I guess, 
government sector--is that we sometimes make the plans and not 
involve the families. And it's important for me that we do 
involve families and all team players as we continue to plan 
for the success of the families we serve.
    The Chairman. Mr. Knight, the regulatory mission program 
area of USDA is quite extensive. Given the increased need, the 
focus on very important issues of the livestock surveillance 
and disease management, such as avian influenza, animal 
identification, and BSC, how will you ensure that other 
important functions of MRP, such as vital technologies and 
field testing, improved vegetable marketing programs, and the 
maintenance of proper grain inspection standards, are 
sufficiently recognized and properly maintained?
    Mr. Knight. In the review and the preparation for this 
hearing, it became very apparent to me that one of the first 
priorities will be to make sure that we have a balanced 
approach. I see a tendency already for the crises of the day to 
eclipse things. And you need to make sure that there is 
management time for the day-to-day issues that need to 
continue. So, BSC and avian influenza and National Animal ID, 
while extraordinarily important, cannot be allowed to eclipse 
the important functions of GIPSA, AMS, and each of the--each of 
the areas there. So, I will strive to find a balanced approach 
to implementation of all the programs within the mission area 
of MRP.
    The Chairman. Ms. McKay, as you know USDA is an extremely 
large governmental department with a number of agencies and 
offices, as well as over 100,000 employees.
    The Office of the Assistant Secretary for Civil Rights 
Mission is to, quote, ``provide leadership and direction for 
the fair and equitable treatment of all USDA customers and 
employees while ensuring the delivery of quality programs and 
enforcement of civil rights,'' close quote. How does your 
previous work experience prepare you for the responsibility of 
carrying out this mission in such a large organization?
    Ms. McKay. Thank you, Senator. I have spent my entire legal 
career in some aspect of civil rights. I've served as a 
prosecutor, a defense counsel, a neutral, and a judge. And 
these experiences have afforded me the opportunity to view the 
issues, the civil rights issues, from different perspectives.
    I have also served as executive assistant to the head of a 
Federal agency, and so I gained a lot of experience in handling 
policies, procedures, personnel, budgets. And in my most recent 
position I was counsel to company managers, advising them on 
good management practices and fair employment practices.
    And so, putting all that together, I think I bring a 
perspective and an ability to see the big picture, and my 
willingness to listen and to collaborate with the USDA 
officials who run the programs, in coming up with a 
comprehensive plan, I think, will do the job.
    The Chairman. Mr. Dunn, you alluded to the fact that the 
modifications made by the Commodity Futures Modernization Act 
are largely viewed as positive additions to the Commodity 
Exchange Act. Would you agree that these reforms are, in fact, 
improving the CFTC's ability to better ensure the integrity of 
the Nation's futures markets? And, if so, would you care to 
elaborate on specific implementation successes?
    Mr. Dunn. Mr. Chairman, the--this has really been an 
unqualified success. And that's not just my opinion; it's 
almost anyone that we talk to. You certainly heard a lot of 
that in your hearing process on the reauthorization of the CEA. 
Just the amount of the increase in the volume of over 300 
percent since the passage of the CFMA speaks volumes for how 
successful that particular piece of legislation is. I think, 
again, that the--this committee, and Congress, as a whole, can 
be just justifiably proud of what you accomplished with that. 
The increase in competition, the innovation and ideas, the 
types of contracts that are being offered today are all a 
result of that particular legislation.
    The Chairman. Now if we can just get the CEA reauthorized, 
we'll be back in business.
    Mr. Dunn. That would be greatly appreciated, Mr.
    Chairman The Chairman. I don't think any of my colleagues 
are going to be coming back, so you folks were saved by the 
proverbial vote. [Laughter.]
    The Chairman. We've looked at your backgrounds, you're 
known personally to a number of us, so we're excited about the 
fact that you're willing to commit yourselves to public 
service. Again, we thank you for being here today.
    I would remind everyone that any questions that you wish to 
submit to these four nominees must be in by tomorrow afternoon 
at 5:00 o'clock. We're going to be getting the committee 
together as soon as possible to consider these nominations and 
move them to the floor. We'd like to get that done before 
adjournment, because all four of these folks need to be 
confirmed.
    So, with that, this hearing will be adjourned. And thank 
you very much. [Whereupon, at 10:30 a.m, the hearing was 
adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 26, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0431.001

[GRAPHIC] [TIFF OMITTED] T0431.002

[GRAPHIC] [TIFF OMITTED] T0431.003

[GRAPHIC] [TIFF OMITTED] T0431.004

[GRAPHIC] [TIFF OMITTED] T0431.005

[GRAPHIC] [TIFF OMITTED] T0431.006

[GRAPHIC] [TIFF OMITTED] T0431.007

[GRAPHIC] [TIFF OMITTED] T0431.008

[GRAPHIC] [TIFF OMITTED] T0431.009

[GRAPHIC] [TIFF OMITTED] T0431.010

[GRAPHIC] [TIFF OMITTED] T0431.011

[GRAPHIC] [TIFF OMITTED] T0431.012

[GRAPHIC] [TIFF OMITTED] T0431.013

[GRAPHIC] [TIFF OMITTED] T0431.014

[GRAPHIC] [TIFF OMITTED] T0431.015

[GRAPHIC] [TIFF OMITTED] T0431.016

[GRAPHIC] [TIFF OMITTED] T0431.017

[GRAPHIC] [TIFF OMITTED] T0431.018

[GRAPHIC] [TIFF OMITTED] T0431.019

[GRAPHIC] [TIFF OMITTED] T0431.020

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 26, 2006



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0431.021

[GRAPHIC] [TIFF OMITTED] T0431.022

[GRAPHIC] [TIFF OMITTED] T0431.023

[GRAPHIC] [TIFF OMITTED] T0431.024

[GRAPHIC] [TIFF OMITTED] T0431.025

[GRAPHIC] [TIFF OMITTED] T0431.026

[GRAPHIC] [TIFF OMITTED] T0431.027

[GRAPHIC] [TIFF OMITTED] T0431.029

[GRAPHIC] [TIFF OMITTED] T0431.030

[GRAPHIC] [TIFF OMITTED] T0431.031

[GRAPHIC] [TIFF OMITTED] T0431.032

[GRAPHIC] [TIFF OMITTED] T0431.033

[GRAPHIC] [TIFF OMITTED] T0431.034

[GRAPHIC] [TIFF OMITTED] T0431.035

[GRAPHIC] [TIFF OMITTED] T0431.036

[GRAPHIC] [TIFF OMITTED] T0431.037

[GRAPHIC] [TIFF OMITTED] T0431.038

[GRAPHIC] [TIFF OMITTED] T0431.039

[GRAPHIC] [TIFF OMITTED] T0431.040

[GRAPHIC] [TIFF OMITTED] T0431.041

[GRAPHIC] [TIFF OMITTED] T0431.042

[GRAPHIC] [TIFF OMITTED] T0431.043

[GRAPHIC] [TIFF OMITTED] T0431.044

[GRAPHIC] [TIFF OMITTED] T0431.045

[GRAPHIC] [TIFF OMITTED] T0431.046

[GRAPHIC] [TIFF OMITTED] T0431.047

[GRAPHIC] [TIFF OMITTED] T0431.048

[GRAPHIC] [TIFF OMITTED] T0431.049

[GRAPHIC] [TIFF OMITTED] T0431.050

[GRAPHIC] [TIFF OMITTED] T0431.051

[GRAPHIC] [TIFF OMITTED] T0431.052

[GRAPHIC] [TIFF OMITTED] T0431.053

[GRAPHIC] [TIFF OMITTED] T0431.054

[GRAPHIC] [TIFF OMITTED] T0431.055

[GRAPHIC] [TIFF OMITTED] T0431.056

[GRAPHIC] [TIFF OMITTED] T0431.057

[GRAPHIC] [TIFF OMITTED] T0431.058

[GRAPHIC] [TIFF OMITTED] T0431.059

[GRAPHIC] [TIFF OMITTED] T0431.060

[GRAPHIC] [TIFF OMITTED] T0431.061

[GRAPHIC] [TIFF OMITTED] T0431.062

[GRAPHIC] [TIFF OMITTED] T0431.063

[GRAPHIC] [TIFF OMITTED] T0431.064

[GRAPHIC] [TIFF OMITTED] T0431.065

[GRAPHIC] [TIFF OMITTED] T0431.066

[GRAPHIC] [TIFF OMITTED] T0431.067

[GRAPHIC] [TIFF OMITTED] T0431.068

[GRAPHIC] [TIFF OMITTED] T0431.069

[GRAPHIC] [TIFF OMITTED] T0431.070

[GRAPHIC] [TIFF OMITTED] T0431.071

[GRAPHIC] [TIFF OMITTED] T0431.072

[GRAPHIC] [TIFF OMITTED] T0431.073

[GRAPHIC] [TIFF OMITTED] T0431.074

[GRAPHIC] [TIFF OMITTED] T0431.075

[GRAPHIC] [TIFF OMITTED] T0431.076

[GRAPHIC] [TIFF OMITTED] T0431.077

[GRAPHIC] [TIFF OMITTED] T0431.078

[GRAPHIC] [TIFF OMITTED] T0431.079

[GRAPHIC] [TIFF OMITTED] T0431.080

[GRAPHIC] [TIFF OMITTED] T0431.081

[GRAPHIC] [TIFF OMITTED] T0431.082

[GRAPHIC] [TIFF OMITTED] T0431.083

[GRAPHIC] [TIFF OMITTED] T0431.084

[GRAPHIC] [TIFF OMITTED] T0431.085

[GRAPHIC] [TIFF OMITTED] T0431.086

[GRAPHIC] [TIFF OMITTED] T0431.087

[GRAPHIC] [TIFF OMITTED] T0431.088

[GRAPHIC] [TIFF OMITTED] T0431.089

[GRAPHIC] [TIFF OMITTED] T0431.090

[GRAPHIC] [TIFF OMITTED] T0431.091

[GRAPHIC] [TIFF OMITTED] T0431.092

[GRAPHIC] [TIFF OMITTED] T0431.093

[GRAPHIC] [TIFF OMITTED] T0431.094

[GRAPHIC] [TIFF OMITTED] T0431.095

[GRAPHIC] [TIFF OMITTED] T0431.096

[GRAPHIC] [TIFF OMITTED] T0431.097

[GRAPHIC] [TIFF OMITTED] T0431.098

[GRAPHIC] [TIFF OMITTED] T0431.099

[GRAPHIC] [TIFF OMITTED] T0431.100

[GRAPHIC] [TIFF OMITTED] T0431.101

[GRAPHIC] [TIFF OMITTED] T0431.102

[GRAPHIC] [TIFF OMITTED] T0431.103

[GRAPHIC] [TIFF OMITTED] T0431.104

[GRAPHIC] [TIFF OMITTED] T0431.105

[GRAPHIC] [TIFF OMITTED] T0431.106

[GRAPHIC] [TIFF OMITTED] T0431.107

[GRAPHIC] [TIFF OMITTED] T0431.108

[GRAPHIC] [TIFF OMITTED] T0431.109

[GRAPHIC] [TIFF OMITTED] T0431.110

[GRAPHIC] [TIFF OMITTED] T0431.111

[GRAPHIC] [TIFF OMITTED] T0431.112

[GRAPHIC] [TIFF OMITTED] T0431.113

[GRAPHIC] [TIFF OMITTED] T0431.114

[GRAPHIC] [TIFF OMITTED] T0431.115

[GRAPHIC] [TIFF OMITTED] T0431.116

[GRAPHIC] [TIFF OMITTED] T0431.117

[GRAPHIC] [TIFF OMITTED] T0431.118

[GRAPHIC] [TIFF OMITTED] T0431.119

[GRAPHIC] [TIFF OMITTED] T0431.120

[GRAPHIC] [TIFF OMITTED] T0431.121

[GRAPHIC] [TIFF OMITTED] T0431.122

[GRAPHIC] [TIFF OMITTED] T0431.123

[GRAPHIC] [TIFF OMITTED] T0431.124

[GRAPHIC] [TIFF OMITTED] T0431.125

[GRAPHIC] [TIFF OMITTED] T0431.126

[GRAPHIC] [TIFF OMITTED] T0431.127

[GRAPHIC] [TIFF OMITTED] T0431.128

[GRAPHIC] [TIFF OMITTED] T0431.129

[GRAPHIC] [TIFF OMITTED] T0431.130

[GRAPHIC] [TIFF OMITTED] T0431.131

[GRAPHIC] [TIFF OMITTED] T0431.132

[GRAPHIC] [TIFF OMITTED] T0431.133

[GRAPHIC] [TIFF OMITTED] T0431.134

[GRAPHIC] [TIFF OMITTED] T0431.135

[GRAPHIC] [TIFF OMITTED] T0431.136

[GRAPHIC] [TIFF OMITTED] T0431.137

[GRAPHIC] [TIFF OMITTED] T0431.138

[GRAPHIC] [TIFF OMITTED] T0431.139

[GRAPHIC] [TIFF OMITTED] T0431.140

[GRAPHIC] [TIFF OMITTED] T0431.141

[GRAPHIC] [TIFF OMITTED] T0431.142

[GRAPHIC] [TIFF OMITTED] T0431.143

[GRAPHIC] [TIFF OMITTED] T0431.144

[GRAPHIC] [TIFF OMITTED] T0431.145

[GRAPHIC] [TIFF OMITTED] T0431.146

[GRAPHIC] [TIFF OMITTED] T0431.147

[GRAPHIC] [TIFF OMITTED] T0431.148

[GRAPHIC] [TIFF OMITTED] T0431.149

[GRAPHIC] [TIFF OMITTED] T0431.150

                                 <all>

</pre></body></html>
